<html>
<title> - H.R. 4899, H.R. 5224, H.R. 5239, H.R. 2166 AND H. CON. RES. 328</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]





    H.R. 4899, H.R. 5224, H.R. 5239, H.R. 2166 AND H. CON. RES. 328

=======================================================================

                                 MARKUP

                               BEFORE THE

                              COMMITTEE ON
                        INTERNATIONAL RELATIONS
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 21, 2000

                               __________

                           Serial No. 106-186

                               __________

    Printed for the use of the Committee on International Relations


        Available via the World Wide Web: http://www.house.gov/
                  international<INF>--</INF>relations

                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
69-717 DTP                  WASHINGTON : 2001
_______________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Printing 
                                 Office
Internet: bookstore.gpo.gov  Phone: (202) 512-1800  Fax: (202) 512-2250
               Mail: Stop SSOP, Washington, DC 20402-0001




                  COMMITTEE ON INTERNATIONAL RELATIONS

                 BENJAMIN A. GILMAN, New York, Chairman
WILLIAM F. GOODLING, Pennsylvania    SAM GEJDENSON, Connecticut
JAMES A. LEACH, Iowa                 TOM LANTOS, California
HENRY J. HYDE, Illinois              HOWARD L. BERMAN, California
DOUG BEREUTER, Nebraska              GARY L. ACKERMAN, New York
CHRISTOPHER H. SMITH, New Jersey     ENI F.H. FALEOMAVAEGA, American 
DAN BURTON, Indiana                      Samoa
ELTON GALLEGLY, California           DONALD M. PAYNE, New Jersey
ILEANA ROS-LEHTINEN, Florida         ROBERT MENENDEZ, New Jersey
CASS BALLENGER, North Carolina       SHERROD BROWN, Ohio
DANA ROHRABACHER, California         CYNTHIA A. McKINNEY, Georgia
DONALD A. MANZULLO, Illinois         ALCEE L. HASTINGS, Florida
EDWARD R. ROYCE, California          PAT DANNER, Missouri
PETER T. KING, New York              EARL F. HILLIARD, Alabama
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
MARSHALL ``MARK'' SANFORD, South     ROBERT WEXLER, Florida
    Carolina                         STEVEN R. ROTHMAN, New Jersey
MATT SALMON, Arizona                 JIM DAVIS, Florida
AMO HOUGHTON, New York               EARL POMEROY, North Dakota
TOM CAMPBELL, California             WILLIAM D. DELAHUNT, Massachusetts
JOHN M. McHUGH, New York             GREGORY W. MEEKS, New York
KEVIN BRADY, Texas                   BARBARA LEE, California
RICHARD BURR, North Carolina         JOSEPH CROWLEY, New York
PAUL E. GILLMOR, Ohio                JOSEPH M. HOEFFEL, Pennsylvania
GEORGE RADANOVICH, California        [VACANCY]
JOHN COOKSEY, Louisiana
THOMAS G. TANCREDO, Colorado
                    Richard J. Garon, Chief of Staff
          Kathleen Bertelsen Moazed, Democratic Chief of Staff
     Hillel Weinberg, Senior Professional Staff Member and Counsel
                    Marilyn C. Owen, Staff Associate




                            C O N T E N T S

                              ----------                              
                                                                   Page

H.R. 4899, the Asian Pacific Charter Commission Act of 2000......     1
H.R. 5224, The International Food Relief Partnership Act of 2000.     4
H.R. 5239, The Export Administration Modification and 
  Clarification Act of 2000......................................     6
H.R. 2166, the Bear Protection Act of 1999.......................     7
H. Con. Res. 328, Relating to Free and Fair Elections in Burma...     8

                                APPENDIX

Prepared Statements:

Hon. Benjamin A. Gilman, a Representative in Congress from the 
  State of New York, Chairman, Committee on International 
  Relations
  H.R. 4899......................................................    21
  H.R. 5224......................................................    22
  H.R. 5239......................................................    22
  H.R. 2166......................................................    22
  H. Con. Res 328................................................    23

Bills and Amendments:

H.R. 4899........................................................    24
Amendment to H.R. 4899 offered by Mr. Gilman.....................    31
H.R. 5224........................................................    40
Amendment to H.R. 5224 offered by Mr. Gilman.....................    44
H.R. 5239........................................................    45
H.R. 2166........................................................    50
H. Con. Res. 328.................................................    58
H. Con. Res. 328, as amended by the Subcommittee on Asia and the 
  Pacific........................................................    63
Amendment to H. Con. Res. 328 offered by Hon. Christopher H. 
  Smith, a Representative in Congress from the State of New 
  Jersey.........................................................    67

 
    H.R. 4899, H.R. 5224, H.R. 5239, H.R. 2166 AND H. CON. RES. 328

                              ----------                              


                      THURSDAY, SEPTEMBER 21, 2000

                  House of Representatives,
                      Committee on International Relations,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 1:46 p.m., in 
Room 2172, Rayburn House Office Building, Hon. Benjamin A. 
Gilman (Chairman of the Committee) presiding.
    Mr. Gilman. The Committee on International Relations meets 
today in open session, pursuant to notice, to consider several 
items.

        H.R. 4899, THE ASIAN PACIFIC CHARTER COMMISSION
                          ACT OF 2000

    Chairman Gilman. Our first bill we will consider is H.R. 
4899, establishing the Pacific Charter Commission. The Chair 
lays the bill before the Committee. The clerk will report the 
title of the bill.
    Ms. Bloomer. H.R. 4899, a bill to establish a commission to 
promote a consistent and coordinated foreign policy of the 
United States to ensure economic and military security in the 
Pacific region of Asia through the promotion of democracy, 
human rights, the rule of law, free trade, and open markets, 
and for other purposes.
    Chairman Gilman. Without objection, the first reading of 
the bill is dispensed with. The clerk will read the bill for 
amendment.
    Ms. Bloomer. Be it enacted by the Senate and House of 
Representatives of the United States of America in Congress 
assembled, Section 1. Short Title----
    Chairman Gilman. Without objection, the bill is considered 
as having been read and is open for amendment at any point.
    [The bill appears in the appendix.]
    Chairman Gilman. I have an amendment in the nature of a 
substitute at the desk. The clerk will report the amendment.
    Ms. Bloomer. Amendment in the nature of a substitute 
offered by Mr. Gilman. Strike all after the enacting clause 
and----
    Chairman Gilman. Without objection, the amendment in the 
nature of a substitute is considered as having been read and is 
open for amendment at any point.
    [The amendment appears in the appendix.]
    Chairman Gilman. I now recognize myself on the bill and the 
amendment.
    Shortly after World War II, the American soldier and 
statesman, George Marshall, said that a safe and free America 
depends on a safe and free Europe. General Marshall, of course, 
was emphasizing the importance of Europe to the United States 
at that time. Permit me to suggest that Marshall's paradigm has 
changed. Today, he would have stated that a safe and free 
America depends on also a democratic, safe, and free Asia.
    Before the summer recess, I introduced H.R. 4899, 
legislation establishing a Pacific Charter Commission. The 
purpose of the commission would be to create a charter that 
would promote a consistent and coordinated foreign policy which 
would ensure economic and military security in the Pacific 
region of Asia. The charter would attempt to obtain these goals 
through the promotion of democracy, human rights, the rule of 
law, free trade, and open markets.
    As you know, this region is vital to the future of our 
Nation. Over the past 50 years, Asia has become a significant 
center of international economic and military power. Our Nation 
has seen the blood of its sons and daughters shed on Asian soil 
in defense of our national interests and in fighting tyranny. 
America has fought three wars in Asia since 1941, and our 
American military, our soldiers, sailors, airmen, and Marines, 
have all been engaged in ensuring peace across the Pacific. Our 
basic interests in Asia have remained virtually the same for 
the past 200 years: fostering democracy, human rights, and the 
rule of law.
    In 1941, our Nation and Great Britain laid down a set of 
principles of foreign policy conduct. It was called the 
Atlantic Charter. Similarly, I propose that we establish a 
Pacific Charter Commission that would assist our Government in 
laying out the principles for our policies in Asia in the 21st 
century. Such a Pacific Charter would articulate America's 
long-term goals and objectives in the Pacific and link them 
with the means for implementation. It would be a comprehensive 
model for our involvement in the region, supporting our 
national interests and assuring others of our intention to 
remain a Pacific power. Further, it would demonstrate that our 
Nation is placing its relations with Asia in the 21st century 
on a par comparable to that which has informed its relations 
with Europe over the latter half of the 20th century.
    H.R. 4899 would establish a commission of seven members 
from outside the Government, with an interest and expertise 
relating to Asia, chosen by the President with the advice and 
consent of the senate. Commissioners, who would serve for 6 
years, would develop a new U.S. foreign policy for the Pacific 
region.
    The time has come to lay out the architecture of policy 
that will establish our intention to remain engaged in Asia and 
the terms of our continued engagement. A commission to 
establish a Pacific Charter for the 21st century would provide 
the framework for such a policy. It would assure the entire 
region--allies and otherwise--of the continuation of our 
leadership that is consistent, coherent, and coordinated.
    Accordingly, I urge my colleagues to vote for H.R. 4899.
    Is there any member--Mr. Bereuter, the Chairman of our Asia 
and the Pacific Subcommittee.
    Mr. Bereuter. Thank you, Mr. Chairman.
    I want to express my concern, as the Chairman knows, that 
the Asia and Pacific Subcommittee was not given a chance to 
examine this. I know the gentleman provided me with a copy 
several days ago, but I have liked to have had the Asia and 
Pacific Subcommittee work its will.
    I would note that the Administration expresses their 
opposition, believing that a new U.S. Government-funded 
commission is not necessary at this point.
    I have examined it closely, and I have tried to see the 
changes the Chairman has made. Would you tell me the nature of 
any specific changes that you have made in your substitute?
    Chairman Gilman. Yes. In reply to the gentleman, the only 
change made is we changed the title from Asia Pacific to the 
Pacific Charter.
    Mr. Bereuter. I see. Mr. Chairman, I----
    Chairman Gilman. Mr. Bereuter, if you will yield?
    Mr. Bereuter. Yes, I yield.
    Chairman Gilman. We have also, at the request of the 
minority, sunsetted this measure to 5 years and reduced the 
budget of the commission from $5 million to $2.5 million to 
bring it more into line with funding levels associated with 
other congressionally mandated commissions.
    Mr. Bereuter. I started out in opposition to it, but I 
noticed the change in the sunset. I appreciate the Chairman's 
and the minority's interest in that.
    I wonder if the Chairman would tell me when, if this 
becomes public law, it would take effect. Immediately upon 
signature of the President?
    Chairman Gilman. I believe it would be upon signature by 
the President.
    Mr. Bereuter. I wonder if the Chairman would consider an 
amendment. I hope you would consider it a friendly amendment. 
We might just express orally making it effective February 1 of 
2001.
    Chairman Gilman. I would have no objection to that.
    Mr. Bereuter. I would make that amendment to the 
gentleman's amendment.
    Chairman Gilman. The gentleman's amendment is agreed upon 
unless there is some objection.
    Mr. Bereuter. Thank you, Mr. Chairman.
    Chairman Gilman. Thank you, Mr. Bereuter. We appreciate 
your support for the measure.
    Are there any other members seeking recognition? If not, 
are there any questions on the amendment? If not, the question 
is on the Gilman amendment. All those in favor, signify in the 
usual manner. Opposed? The amendment is agreed to.
    If there are no further amendments, without objection, the 
previous question is ordered.
    The gentleman from Nebraska, Mr. Bereuter, is recognized to 
offer a motion.
    Mr. Bereuter. Mr. Chairman, I gather you would like this on 
the suspension calendar; therefore, I move the Chairman be 
requested to seek consideration of the pending measure, as 
amended, on the suspension calendar.
    Chairman Gilman The question is on the motion of the 
gentleman from Nebraska. Those in favor of the motion, signify 
in the usual manner. Those opposed, say no.
    The ayes have it. The motion is agreed to. Without 
objection, the Chair or his designee is authorized to make the 
motions under Rule 22 with respect to a conference on this bill 
or a counterpart from the Senate.
    I thank the gentleman for his support.

  H.R. 5224, THE INTERNATIONAL FOOD RELIEF PARTNERSHIP ACT OF 
                              2000

    Chairman Gilman. We now move to consider H.R. 5224 relating 
to international food relief partnerships. The Chair lays the 
bill before the Committee. The clerk will report the title of 
the bill.
    Ms. Bloomer. H.R. 5224, a bill to amend the Agricultural 
Trade Development and Assistance Act of 1954 to authorize 
assistance for the stockpiling and rapid transportation, 
delivery, and distribution of shelf stable prepackaged foods to 
needy individuals in foreign countries.
    Chairman Gilman. Without objection, the first reading of 
the bill is dispensed with. The clerk will read the bill for 
amendment.
    Ms. Bloomer. Be it enacted by the Senate and House of 
Representatives of the United States of America in Congress 
assembled, Section 1, Short Title, this act may be cited----
    Chairman Gilman. Without objection, the bill is considered 
as having been read and is open for amendment at any point.
    [The bill appears in the appendix.]
    Chairman Gilman. Are there any members seeking recognition?
    [No response.]
    Chairman Gilman. I now recognize myself briefly.
    I am pleased to join the Chairman of the Committee on 
Agriculture, Mr. Combest, the distinguished gentleman from 
Texas, and the ranking member of the Committee on Agriculture, 
the distinguished gentleman from Texas, Mr. Stenholm, and the 
Chairman of the Subcommittee on Asia and the Pacific of the 
International Relations Committee, Mr. Bereuter, and our 
distinguished colleague Mr. Hall, the gentleman from Ohio, in 
introducing the International Food Relief Partnership Act of 
2000.
    The International Food Relief Partnership Act of 2000 
authorizes the stockpiling and rapid transportation, delivery, 
and distribution of shelf stable prepackaged foods to needy 
individuals in foreign countries.
    The bill creates a public-private partnership to leverage 
the donation of nutritious food by volunteers to needy families 
around the globe at times of famine, disaster, and other 
critical needs.
    Nonprofits such as Breedlove, Child Life International, and 
Feed the Starving Children provide direct hunger assistance at 
times of disaster, famine, or other critical need. Other 
nonprofits similar to these fine organizations are located 
throughout Nation. These nonprofits accept gleaned crops 
donated by regional farmers and help transport and distribute 
this food overseas. Once the donated food is processed, it can 
be stored for years for use in food emergencies.
    We need to encourage more volunteer efforts from nonprofits 
of this nature. The International Food Relief Partnership Act 
accomplishes this objective by providing a means for nonprofits 
to accept donated food and process it into a product for use in 
times of disaster, famine, or other critical need.
    I ask my colleagues to support this legislation.
    Mr. Gejdenson? Any other members seeking recognition? Mr. 
Bereuter?
    Mr. Bereuter. Thank you, Mr. Chairman. I want to express my 
support for H.R. 5224. As the original cosponsor of this 
measure, following the Chairman's lead, I would like to thank 
you for your initiative in advancing it.
    As an advocate of food assistance programs, I welcome this 
legislation as a unique initiative to build grass-roots support 
for our foreign food assistance program. Currently, large 
agribusiness companies serve as the primary supplier for 
commodities used in Title II food aid programs completed by 
USAID. This bill, of course, amends Title II of the 
Agricultural Trade Development and Assistance Act to create 
opportunities for nonprofit organizations and private voluntary 
organizations (PVOs) in agricultural areas to also become 
directly involved in the production, storage, and distribution 
of prepackaged food materials for use in USAID food aid 
projects.
    In my opinion, it is certainly possible and advantageous 
for the private and the nonprofit sector to work together on 
food aid programs. Indeed, it is important to keep as many 
people as possible engaged in food assistance programs, as 
Asians, Africans, and Central Americans face hunger due to 
natural disaster and abject poverty, and as American farmers 
search for new venues for their surplus commodities.
    On a side note, I would like to express my dismay that the 
Clinton Administration has drastically cut Title III food for 
development grants from $312.1 million to $25 million, a 92-
percent cut in funding. I would say that those and other 
similar cuts limit food aid options and, thus, have a very 
negative impact on support for food aid programs and on the 
agricultural sector. I have complained in the past about this 
cut.
    But this legislation is another opportunity for us to 
deliver food and do good things for the poorest people in the 
world, and I thank the Chairman for his initiative.
    Chairman Gilman. Thank you, Mr. Bereuter, for your 
comments.
    I have a technical amendment at the desk the clerk will 
read.
    Ms. Bloomer. Amendment offered by Mr. Gilman, at the end of 
line 19 on page 2, add ``requested by.''
    [The amendment appears in the appendix.]
    Chairman Gilman. Any comments on the amendment? If not, all 
in favor of the amendment, signify in the usual manner. 
Opposed? The amendment is carried.
    Are there any other members seeking recognition? If not, if 
there are no further amendments, without objection, the 
previous question is ordered.
    The gentleman from Nebraska, Mr. Bereuter, is recognized to 
offer a motion.
    Mr. Bereuter. Mr. Chairman, I move that the Chairman be 
requested to seek consideration of the pending measure as 
amended on the suspension calendar.
    Chairman Gilman. The question is on the motion of the 
gentleman from Nebraska. All those in favor, signify in the 
usual manner. Opposed?
    The ayes have it. The motion is agreed to. Without 
objection, the Chair or his designee is authorized to make 
motions under Rule 22 with respect to a conference on this bill 
or a counterpart from the Senate.

     H.R. 5239, THE EXPORT ADMINISTRATION MODIFICATION AND 
                   CLARIFICATION ACT OF 2000

    Chairman Gilman. We now move to consider H.R. 5239, to 
reauthorize certain provisions of the Export Administration 
Act. The Chair lays the bill before the Committee. The clerk 
will report the title of the bill.
    Ms. Bloomer. H.R. 5239, a bill to provide for increased 
penalties for violations of the Export Administration Act of 
1979, and for other purposes.
    Chairman Gilman. Without objection, the first reading of 
the bill is dispensed with. The clerk will read the bill for 
amendment.
    Ms. Bloomer. Be it enacted by the Senate and House of 
Representatives of the United States of America in Congress 
assembled, Section 1, Short Title----
    Chairman Gilman. Without objection, the bill is considered 
as having been read and is open for amendment at any point.
    [The bill appears in the appendix.]
    Chairman Gilman. I now recognize myself briefly.
    The Export Administration Modification and Clarification 
Act of 2000 will strengthen the enforcement of our export 
control system by increasing the penalties against those who 
would knowingly violate its regulations and provisions.
    This measure would implement one of the key recommendations 
of the Cox Commission report on protecting our national 
security interests, and is virtually identical to a provision 
in H.R. 973, a security assistance bill, which passed the House 
in June of last year with strong bipartisan support.
    Since the Export Administration Act lapsed in August 1994, 
the Administration has used the authorities in the 
International Emergency Economic Powers Act to administer our 
export control system. But in some key areas, the 
Administration has less authority under IEEPA than under the 
EAA of 1979.
    For example, the penalties for violations of the Export 
Administration regulations that occur under IEEPA, both 
criminal and civil, are substantially lower than those 
available for violations that occur under the EAA. Even these 
penalties are too low, having been eroded by inflation over the 
past 20 years.
    The measure I am introducing today significantly increases 
the penalties available to our enforcement authorities at the 
Bureau of Export Administration in the Department of Commerce. 
It also ensures that the Department can maintain its ability to 
protect from public disclosure information concerning export 
license applications, the licenses themselves, and related 
export enforcement information.
    In view of the lapse of the EAA over the past five and a 
half years, the Department is coming under mounting legal 
challenges and is currently defending against two separate 
lawsuits seeking public release of export licensing information 
subject to the confidentiality provisions of section 12(c) of 
the EAA.
    This measure authorizes $72 million for fiscal year 2001 
for the operation of the Export Administration Act as continued 
under the International Emergency Economic Powers Act.
    Accordingly, I urge my colleagues to join in supporting 
this very timely measure that will provide the authorities our 
regulators need to deter companies and individuals from 
exporting dual-use goods and technologies to countries and 
users of concern and to protect the confidentiality of the 
export control process.
    Are there any members seeking recognition?
    [No response.]
    Chairman Gilman. Are any members seeking to offer 
amendments?
    [No response.]
    Chairman Gilman. If there are no amendments, without 
objection, the previous question is ordered. The gentleman from 
Nebraska, Mr. Bereuter, is recognized to offer a motion.
    Mr. Bereuter. Mr. Chairman, I move the Chairman be 
requested to seek consideration of the pending measure on the 
suspension calendar.
    Chairman Gilman. Thank you, Mr. Bereuter.
    The question is on the motion of the gentleman from 
Nebraska. Those in favor of the motion, signify in the usual 
manner. Those opposed, say no.
    The ayes have it. The motion is agreed to. Without 
objection, the Chair or his designee is authorized to make the 
motions under Rule 22 with respect to a conference on this bill 
or a counterpart from the Senate.

           H.R. 2166, THE BEAR PROTECTION ACT OF 1999

    Chairman Gilman. We will now consider H.R. 2166, the Bear 
Protection Act. The Chair lays the bill before the Committee. 
The clerk will report the title of the bill.
    Ms. Bloomer. H.R. 2166, a bill to conserve global bear 
populations by prohibiting the importation, exportation, and 
interstate trade of bear viscera and items, products, or 
substances containing, or labeled, or advertised as containing, 
bear viscera, and for other purposes.
    Chairman Gilman. This bill was referred by the Speaker to 
the Committee on Resources and in addition to our Committee and 
to the Committee on Ways and Means.
    Without objection, the first reading of the bill is 
dispensed with. The clerk will read the bill for amendment.
    Ms. Bloomer. Be it enacted by the Senate and House of 
Representatives of the United States of America in Congress 
assembled, Section 1. Short Title, this act may be cited as the 
Bear Protection Act----
    Chairman Gilman. Without objection, the bill is considered 
as having been read and is open for amendment at any point.
    [The bill appears in the appendix.]
    Chairman Gilman. I now recognize myself briefly. I want to 
commend Representative Porter, the gentleman from Illinois, for 
crafting this important bill. And I also want to thank 
Chairwoman Ros-Lehtinen and the ranking minority member of the 
International Economic Policy and Trade Subcommittee for their 
quick action on the bill.
    Although the demand for bear parts is virtually non-
existent in our Nation, that market is rapidly expanding in 
Eastern Asia. Bear viscera are widely used as aphrodisiacs, as 
traditional medicines to treat everything from epilepsy to 
toothaches, and some parts are considered culinary delicacies. 
As East Asia has already forced its bear population to the 
brink of extinction, they are turning to the United States as a 
new source for bear viscera. In South Korea, North American 
bear gall bladders are sold under-the-counter in small 
quantities and are worth more, gram for gram, than cocaine.
    H.R. 2166 bans the sale, export, import, and possession of 
bear viscera and would set civil and criminal penalties for 
violations. The Bear Protection Act also directs our U.S. Trade 
Representative to make international trafficking in bear 
viscera a priority issue in ongoing discussions with our Asian 
trading partners.
    Accordingly, I urge my colleagues to support H.R. 2166.
    Are there any members seeking recognition or seeking to 
offer amendments?
    [No response.]
    Chairman Gilman. If there are no amendments or further 
requests, without objection, the previous question is ordered.
    The gentleman from Nebraska, Mr. Bereuter, is recognized to 
offer a motion.
    Mr. Bereuter. Mr. Chairman, I move that the Chairman be 
requested to seek consideration of the pending measure on the 
suspension calendar.
    Chairman Gilman. The question is now on the motion of the 
gentleman from Nebraska, Mr. Bereuter. Those in favor, signify 
in the usual manner. Those opposed, say no?
    The ayes have it. The motion is agreed to. Without 
objection, the Chair or his designee is authorized to make 
motions under Rule 22 with respect to a conference on this bill 
or a counterpart from the Senate.

 H. CON. RES. 328, RELATING TO FREE AND FAIR ELECTIONS IN BURMA

    Chairman Gilman. We now consider H. Con. Res. 328 relating 
to Burma. The Chair lays the resolution before the Committee. 
The clerk will report the title of the resolution.
    Ms. Bloomer. H. Con. Res. 328, a resolution expressing the 
sense of the Congress in recognition of the 10th anniversary of 
the free and fair elections in Burma and the urgent need to 
improve the democratic and human rights of the people of Burma.
    [The resolution appears in the appendix.]
    Chairman Gilman. This resolution was referred to the 
Subcommittee on International Operations and Human Rights who 
reported it on June 28th to the Full Committee with an 
amendment in the nature of a substitute.
    The resolution was also referred to the Subcommittee on 
Asia and the Pacific and was reported on September 13th to the 
Full Committee with an amendment in the nature of a substitute.
    Without objection, the Subcommittee-recommended language 
from the Subcommittee on Asia and the Pacific will be treated 
as original text for the purposes of amendment. The clerk will 
read the preamble and operative language of the Subcommittee's 
recommendation, in that order, for amendment. The clerk will 
read.
    Ms. Bloomer. Whereas in 1988 thousands of Burmese citizens 
called for a democratic change in Burma and participated in 
peaceful demonstrations----
    Chairman Gilman. Without objection, the Subcommittee's 
recommendation is considered as having been read and is open 
for amendment at any point.
    [The amended resolution appears in the appendix.]
    Chairman Gilman. I would now recognize the gentleman from 
Nebraska, Mr. Bereuter, the Chairman of our Subcommittee on 
Asia and the Pacific, to introduce the measure to the 
Committee.
    Mr. Bereuter. Thank you, Mr. Chairman.
    H. Con. Res. 328 was introduced on May 16th by the 
gentleman from Illinois, Mr. Porter, and unanimously approved 
by the Subcommittee on Asia and the Pacific on September 13th. 
For over 10 years, the Burmese military regime, now known as 
the State Peace and Development Council (the SPDC) has refused 
to implement the results of the 1990 elections which were won 
overwhelmingly by the National League for Democracy (NLD).
    During this period, and indeed since 1962, when General Ne 
Win and the military seized control, the military has engaged 
in egregious, systematic violence and abuse of the fundamental 
human rights of ethnic minorities and other people of the 
country. The abuses of the junta in Rangoon most recently have 
come under international scrutiny when, on August 24th, Aung 
San Suu Kyi was denied the ability to visit NLD party offices 
outside the capital. For 9 days, she was detained at a 
roadblock and eventually was forcibly returned to her 
residence. Since that time, she and other NLD party leaders 
have been under virtual house arrest.
    Despite the military's denials, no independent observer had 
been allowed to visit, and the British Ambassador was roughed 
up when he attempted to force his way into her compound.
    In addition, party offices have been ransacked and papers 
seized. To justify their actions, the junta has issued the 
ludicrous charge that the NLD had formed an alliance with the 
rebels in the provinces.
    It is entirely proper that the House of Representatives go 
on record condemning these human rights abuses. Since her 
electoral victory in 1990, Daw Aung San Suu Kyi has repeatedly 
been arrested, threatened, and harassed. The illegal SPDC 
military regime has done everything possible to discredit the 
NLD and its leader. This is simply wrong, and we, of course, 
should say so repeatedly and emphatically and do anything else 
we can that is effective.
    Mr. Chairman, at the subcommittee markup, an amendment was 
approved that had the concurrence of the resolution's author, 
Mr. Porter, and which was designed to update the situation in 
Burma and address two concerns that were raised regarding the 
base text.
    First, the amendment updated the current standoff between 
Aung San Suu Kyi and the military by including six new whereas 
clauses. These clauses detailed the denial of right to movement 
and association and the seizure of documents at the NLD party 
offices. The new language makes it clear that Aung San Suu Kyi 
was clearly within her rights in attempting to visit party 
offices and that there was no justification for the roadblock 
established by the SPDC.
    Secondly, we made technical changes to correct the name of 
the Department of State International Narcotics Control 
Strategy Report for 2000.
    Lastly, the amendment altered Resolved Clause 3. The 
resolution as introduced endorses the economic and political 
sanctions that are currently in force.
    Unfortunately, the sanctions are simply not having the 
desired effect. Burma has not been isolated. It has become a 
full member of ASEAN. Burma's neighbors--India, China, Japan, 
and Southeast Asian nations--are pursuing a policy of 
engagement with Burma. Australia prefers a policy of 
``constructive engagement'' as they call it.
    Even the EU countries, which have joined us in expressing 
outrage against the policies of the Burmese junta, have 
generally not imposed economic sanctions. While unilateral 
economic sanctions may make us feel good, they rarely are 
effective in forcing changes on recalcitrant regimes. 
Unfortunately, the regime's outrageous behavior and stubborn 
refusal to even engage the NLD in a meaningful dialogue leaves 
us with few options to our present policy of sanctions and 
isolation.
    Let me make myself clear. I do not have a more effective 
alternative to the current sanctions policy. We have looked for 
one, but unless we have multilateral at least within the 
region, it is going to be very difficult. So I am as frustrated 
at least as all the members are.
    However, I think we should not delude ourselves by 
believing that the current policy is effective, and that was 
original language of the resolution. I, therefore, requested of 
Mr. Porter that he agree to modify this language and say that 
the U.S. should continue to pursue policies with regard to 
Burma designed to, and so on, and those who support the 
sanction policy, if they choose, can read this as an 
endorsement of sanctions.
    However, there is sufficient flexibility in the language to 
address the concerns of those who are frustrated with the 
ineffectiveness of the sanctions. And I hope, Mr. Smith, from 
our discussion a few minutes ago, you understand how we have, 
with Mr. Porter, tried to accommodate those people that want to 
leave sanctions in place, but also for people like myself that 
believe that sanctions frankly are not effective, to read it 
that way. I don't, as I mentioned, have a good alternative. We 
have sought them in Committee. We have sought them by 
individual discussions. We have sought them on an international 
basis.
    I would once again note that the resolution's author, Mr. 
Porter, is comfortable with the proposed change. I discussed 
this matter with Chairman Smith earlier, and I just confirmed 
with Mr. Porter less than an hour and a half ago that he was 
pleased and wanted the resolution in its current amended form 
to be moved to the floor expeditiously under suspension 
calendar.
    Mr. Chairman, I urge the Committee to approve H. Con. Res. 
328 as amended.
    Chairman Gilman. Thank you, Mr. Bereuter.
    Any other members----
    Mr. Payne. Mr. Chairman?
    Chairman Gilman. Mr. Payne?
    Mr. Payne. Thank you very much, Mr. Chairman. I strongly 
support this House Con. Res. 328 and feel that we really have 
to attempt to keep the pressure on. I did have the opportunity 
to get to Burma, as I might have mentioned before, about a year 
or so ago and did force the authorities to allow us to see Aung 
San Suu Kyi at the U.S. embassy. We had a several-hour lunch 
and discussion with her, and we also had the opportunity to 
meet with SLORC members at another time, those who were elected 
at the time she was elected. And they are certainly a 
tremendous repressive government. The treatment of the Burmese 
in Thailand is also something that we should really have the 
Thai Government look into. There are 800,000 refugees or 
workers there making about $1 a day. It is really unbelievable.
    So I certainly support this. We visited the borders up by 
the People's Republic of China where they have also an 
enterprise going on in that region. But it is repressive. The 
military government is--as a matter of fact, a group of 
students were given about 10 years in prison for demonstrating, 
and I have written the Government of Burma several times asking 
them if they would reconsider. These were just students 
demonstrating. I thought that was certainly overly extreme.
    So, Mr. Chairman, I certainly support this strongly and 
urge the passage of this bill.
    Chairman Gilman. Are any other members seeking recognition?
    Mr. Smith. Mr. Chairman?
    Chairman Gilman. Mr. Rohrabacher? Mr. Smith?
    Mr. Smith. Thank you very much, Mr. Chairman.
    Mr. Chairman, I do have an amendment that I would like to 
offer to H. Con. Res. 328.
    Chairman Gilman. The clerk will report the amendment.
    Ms. Bloomer. Amendment offered by Mr. Smith, page 5, 
``Strike lines 5 through 7 and insert the following: (3) United 
States policy should sustain current economic and political 
sanctions against Burma as the appropriate means.''
    [The amendment appears in the appendix.]
    Mr. Bereuter. Would the gentleman yield?
    Mr. Smith. I would be happy to yield.
    Mr. Bereuter. I thank the gentleman for yielding. I 
consider this move on the gentleman's part a violation of our 
agreement that we had when we proceeded with this, and I would 
ask the gentleman to reconsider offering this amendment. It is 
not what we agreed to earlier. I understand the gentleman's 
point about the sanctions. And all I am saying is I don't want 
to give any indication--and other members don't--that they are 
effective. And we have left it so that all of the policies are 
pursued with respect to the two objectives, A and B, are 
identified. This gives the Administration, current and future, 
maximum flexibility, including continuing with the current 
policies, whatever they think is effective to pursue a 
restoration of democracy, human rights, and civil liberties 
under Part A, and Part B, to support U.S. national security 
counter-narcotics interests.
    I just think at this late point to violate what I think was 
a clear agreement is not good faith.
    Mr. Smith. Let me just say, reclaiming my time, that in 20 
years I have never violated--and I never will violate--an 
agreement. I want that on the record and very clearly stated.
    In looking at the gentleman's language, I had no idea that 
the intent of the language that he is talking about--and he 
just articulated it again here today--was to suggest that both 
sides could read into that language, the pro-sanctions group 
and the anti-sanctions group can both walk away and say their 
cause has been vindicated. That is not my intent. My intent is 
to be as clear and as unambiguous as possible. As we all know, 
the distinguished Chairman of the Asia and the Pacific 
Subcommittee was likely not going to bring this resolution up, 
but the clear intent to pursue policies with regard--as stated 
on page 5----
    Mr. Bereuter. Would the gentleman yield for a 
clarification?
    Mr. Smith. No, I won't yield this time.
    Mr. Bereuter. You misstated my intention.
    Mr. Smith. Well, I just heard your intention stated, but 
let me----
    Mr. Bereuter. I have----
    Mr. Smith. You will have to get your own time.
    Mr. Bereuter. I had always intended to bring this 
resolution up. I had assured Mr. Porter I would.
    Mr. Smith. Well, that is good to hear, but let me just say 
very clearly, this amendment that I am offering today puts all 
the members on the record--vote it up or down. I hope they will 
vote it up and approve this. It is a very clear amendment. In 
this case, I agree with the Clinton Administration. I was very 
happy that Secretary of State Madeleine Albright and the 
Administration took the initiative. Many of us had encouraged 
her to do so, but she did so in her own right because of the 
outrageous behavior by the Burmese authorities.
    Today, as we meet, there is a BBC Wire Service story that 
the military authorities in Burma have again prevented the 
democracy leader, Aung San Suu Kyi, from leaving the capital in 
Rangoon.
    The Burmese authorities have gotten worse. Now, is this the 
time when you should pull the plug on the sanctions, or give 
any kind of suggestion that could be read by the Rangoon 
leadership as a sign that we are somehow wavering? I don't 
think so. Yes, this is basically sense of the Congress, but 
what we say does have meaning. It does, hopefully, indicate 
where we are coming from in terms of our policy direction, and 
I think we need to reiterate in the strongest terms possible--
and this is clear and, as I said, is nonambiguous language--
that we want the United States policy to maintain current 
economic and political sanctions. To say otherwise, to give 
some kind of indication that could go either way I think just 
emboldens the dictatorship, however unwitting or unintentional 
that outcome is.
    And let me say, had I known that this language could be 
read both ways, I would never, ever, ever have suggested that 
we embrace such language. The language that states pursue 
policies, the policies that the Administration is pursuing, is 
well meaning, well intentioned. But sanctions, as we all know, 
never work in a day, maybe not in a year, maybe not in several 
years. I supported sanctions against South Africa, and was 
frankly the only Republican on this panel 15 years ago or so 
who took that position, because I believed it was right even 
though it might not succeed overnight. There was a counter 
argument that was meaningful, but I felt at the time that that 
was the way to proceed. And eventually the sanctions did indeed 
work.
    Right now there is an outrage going on in Rangoon. Aung San 
Suu Kyi, the great Nobel Peace Prize winner, and her 
organization and her freely-elected members of her parliament 
are persona non grata, and I think we need to say, 
notwithstanding anything else that ASEAN does, that we are on 
record for these sanctions. And I hope the membership of the 
Committee will support this amendment.
    Chairman Gilman. Thank you, Mr. Smith.
    Mr. Smith. And it is absolutely no breach of any agreement.
    Chairman Gilman. Mr. Rohrabacher next, then I will come 
back to Mr. Bereuter. Mr. Rohrabacher? Mr. Bereuter?
    Mr. Bereuter. Mr. Chairman, members. The gentleman perhaps 
was wrong when he suggested unknowingly that I had not intended 
to bring this resolution up. If he feels that in fact I had not 
and had not good intentions to bring it up, it is outrageous. I 
had assured Mr. Porter at all times that this resolution would 
come to the Committee, I would try to expedite its movement to 
the floor. And that continues to be the case. Now, if the 
gentleman thinks otherwise, it is outrageous.
    Now, I invite members to calmly look at page 5, at lines 5 
through 11. As members can see from the resolution before you, 
it says, ``United States policy shall continue to pursue 
policies with regard to Burma that are designed to'', and then 
the two clauses with the objectives. That gives the 
Administration wide flexibility on designing what is 
appropriate. It does not say, nor does this member suggest that 
they have to relieve any kind of sanctions that are opposed, 
but I do not want to give any impression whatsoever that we 
think they are effective. Unfortunately, they are not as long 
as we do not have multilateral support at least within the 
region and among major countries like Japan and Australia, for 
example, and certainly the European Union.
    Now, we know that occasionally sanctions do work, but it is 
almost always when they are multilateral sanctions, as was the 
case with South Africa. What the gentleman wants to do is 
change it to say ``its current policies.'' By saying 
``current'' it suggests that there can be no change, that we 
don't necessarily support anything that isn't a current policy. 
And I think if you look at it that way, you will understand 
that I am not attempting to give any message that we need to 
lift the sanctions. It just says ``to continue to pursue 
policies with regard to Burma.'' If the Administration wants to 
continue policies or a future Administration, good, that is up 
to them. They have that option. Maybe at some time they will be 
effective. They certainly might if a few more countries joined 
us, but at the moment, we are alone. I hope in what I believe 
was an agreement to move it forward, that the gentleman's 
amendment will, since he is pursuing it, not be accepted. In 
any case, the resolution is important. It will move forward.
    Chairman Gilman. Mr. Rohrabacher?
    Mr. Rohrabacher. I rise in strong support of the amendment. 
Let me just say that I have watched policy concerning Burma and 
I have watched what is going on in Burma since before I was 
elected to Congress. I have met with young students who were in 
Rangoon, who saw their fellow students shot down and young 
female students who were brutally raped by soldiers from the 
regime, and students who were chased through the jungles. I met 
these students in jungle camps in Burma. In fact, one of the 
first things that happened to me was that I was condemned for 
meeting these students, for crossing the border illegally into 
the jungle to meet these brave freedom fighters. And ever since 
then--I have to tell you, these people, who are struggling for 
Burma against these tremendous odds especially under the 
leadership of Aung San Suu Kyi, are some of the most admirable 
people in the world. They are facing a horrendous challenge. 
You know, the dictatorship has all the guns. They are as brutal 
as any dictatorship could be. They have got drug lords in 
cahoots with the leaders of their country.
    How would you like to live in a country in which the drug 
lords and the government went to the same restaurant every 
night and partied together? And all of a sudden all of the 
government officials have fancy cars. And where did they get 
the money to do that when their people are literally eating 
crickets because the food production has gone down so much in 
that country that used to be ``the rice bowl'' of Asia.
    We currently have a policy of sanctions. The reason Mr. 
Smith's amendment must be adopted is because the gangsters in 
Rangoon will read this bill without Mr. Smith's amendment, as a 
retrogression, as a backing down of American policy of 
sanctions.
    Now, Mr. Bereuter has argued, articulately, that the 
sanctions may or may not be affected, but the very last thing 
that we want to do with the most vile, corrupt regime on this 
planet and which is being challenged peacefully by such heroic 
people as Aung San Suu Kyi, the last thing we want to do is to 
send a message that can be read by those people as a backing 
down from our confrontation or our adamant opposition to that 
regime. And that is the way it will be read and that is what 
they will say.
    ASEAN has had a policy that is not involved with sanctions. 
That policy has failed. They admit it has failed. Our policy 
has sanctions. Now we can say we are in search of a policy. 
Well, it is pretty easy to determine what the policy should be. 
The United States of America should be on the side of people 
who believe in democracy, people who believe in honest 
government, and we should be opposed to dictators and to 
murderers and to thugs who brutalize their people and terrorize 
their population. The choice is so clear in Burma, and I don't 
think the policy of sanctions, economic sanctions goes far 
enough. I think we should be working with Thailand and others, 
who would have gone in this direction, to openly support Aung 
San Suu Kyi and her elected majority in Burma, and recognize 
them as a government in exile because they are the government. 
We believe that government are those people who have the 
consent of the governed, and in Burma that means Aung San Suu 
Kyi and her people. And I say, I couldn't more strongly support 
Mr. Smith's amendment that keeps us on the record and cannot be 
interpreted as backing down from our opposition to that vile 
regime. Thank you very much.
    Chairman Gilman. Thank you, Rohrabacher. Are any other 
members seeking recognition? Mr. Payne.
    Mr. Payne. Yes. I too rise in support of Mr. Smith's 
amendment. As I indicated, I had the opportunity to be there 
firsthand and talk to Aung San Suu Kyi and people who were 
elected with her. I saw the brutality and the students that 
were beaten by the authorities, the lack of any kind of 
progress that is being made. And for us to have a sanctions 
policy and then to remove it, would certainly give a signal 
that the US is sort of looking the other way, or not as serious 
about this regime as we were, because we are removing something 
that was previously there. And so I support the amendment.
    Mr. Bereuter. Will the gentleman yield?
    Mr. Payne. Yes.
    Mr. Bereuter. I thank the gentleman from New Jersey. There 
is nothing in the resolution, I just remind the gentleman, that 
removes the economic sanctions. I just want to clarify that. It 
is pressure. Thank you for yielding.
    Mr. Payne. Thank you very much. Thanks for that correction. 
I still think though it should be clear then, and for that, I 
support the amendment from the gentleman from New Jersey.
    Chairman Gilman. Are any other members seeking recognition? 
If not, I want to support Congressman Porter, the gentleman 
from Illinois for introducing this important piece of 
legislation.
    Today Aung San Suu Kyi is attempting to travel to northern 
Burma in defiance of the dictatorship's ban on her traveling. 
She was twice forcefully returned after attempting to travel in 
Burma. The last attempt was August 24th. She camped out in her 
car for 9 days until the dictatorship forced her back. She was 
then held incommunicado. As we speak today, she is surrounded 
by heavily-armed soldiers at the train station and is being 
prevented from boarding the train.
    The UN General Assembly and the Human Rights Commission 
have passed nine consecutive resolutions regarding the 
appalling human rights conditions in Burma. This resolution as 
amended assures Congress remains on record in support of the 
brave woman in Burma.
    And with regard to the amendment, I strongly support the 
amendment by the gentleman from New Jersey. Congress needs to 
remain firmly on record in support of the continuing sanctions 
against the repressive illegal government in Burma. Aung San 
Suu Kyi and the members of Parliament who were elected in 1990, 
have not been able to establish a government inside of Burma. 
Many of her supporters have been and still are in prison. 
Thousands have been tortured and murdered. The government 
relies heavily on slave and forced labor for construction 
projects. The ILO has even banned it from participating in any 
ILO meetings.
    The government is also deeply involved in the illicit drug 
trade. It was just reported by Secretary Cohen, who was in 
Thailand 2 days ago, that the Thai are asking for 50 
helicopters to fight against the drug trafficking. The Thai 
military has estimated that 600 million amphetamine pills 
flooded Thailand last year from across a 2,000-kilometer border 
with Myanmar. Thai community leaders have frequently accused 
Myanmar of destroying Thai youth, warning that drug addiction 
was reaching crisis proportions in Thailand, with more than 
600,000 young people reportedly hooked on amphetamines. In 
Bangkok Tuesday, Secretary Cohen said, ``We understand now 
there is a serious problem concerning Thailand by virtue of 
methamphetamine being produced and distributed from Burma.'' 
The drug problem will be high on the agenda of the commander of 
US forces in the Pacific who is due to visit Thailand next 
week. Now is certainly not the time to suggest that Congress is 
backing down from its strong support for these sanctions. 
Accordingly, I urge our colleagues to support the amendment by 
the gentleman from New Jersey.
    Dr. Cooksey.
    Mr. Cooksey. Thank you, Mr. Chairman. I understand my 
friend from New Jersey's reason for this amendment to sustain 
the sanctions and sustain our current policy, or perhaps add 
the sanctions. We have tried sanctions in this country for 
years, and usually they are ineffective and they do nothing but 
hurt the people that are in that country that need the most 
help.
    Now, I was in the military 30 years ago. I believe that the 
military has a place, but the military in Burma is really a 
major part of the problem. When I was there last November, I 
told some of the military officers that if anything happens to 
Aung San Suu Kyi, the wrath of the world will be on them, and 
for those of you that think I am a loose cannon, the wrath of 
John Cooksey will be on those guys too.
    And this bothers me when I read that someone in the 
government says that Aung San Suu Kyi would be, quote, 
``crushed for trying to draft the constitution'', and just the 
general attitude of those people.
    But that said, I still do not think we should support this 
amendment, and I don't think it is a good amendment, and I 
don't think it will help Aung San Suu Kyi. I don't think it 
will help the people over there that have the courage to stand 
up to the military. I think it is a self-defeating amendment. 
So thank you, Mr. Chairman.
    Chairman Gilman. Thank you, Dr. Cooksey. Are any other 
members seeking recognition? If not, the question is now on the 
amendment by the gentleman from New Jersey, Mr. Smith. All in 
favor, signify in the usual manner.
    Opposed?
    The amendment is carried. Is any other member seeking 
recognition or desiring to offer any amendments? Mr. 
Rohrabacher?
    Mr. Rohrabacher. Is this the time to comment on the bill 
itself?
    Chairman Gilman. Yes.
    Mr. Rohrabacher. All right. I would seek recognition.
    Chairman Gilman. Mr. Rohrabacher is recognized.
    Mr. Rohrabacher. And I will make this very short. In 
talking about how the United States should engage a 
dictatorship like we find in Burma--and let me just say that 
Mr. Bereuter, who works very diligently at his job and is a 
very, very conscientious Chairman of the Subcommittee--we just 
have some honest disagreements. It is as simple as that.
    Mr. Bereuter. Will the gentleman yield?
    Mr. Rohrabacher. Yes, sir.
    Mr. Bereuter. I thank you for your kind words, but in this 
one we have, I think no disagreement. I respect the gentleman's 
particular knowledge of Burma. I think it is an outrageous 
regime. I want to bring this woman who was elected in 1990 to 
power. There is no disagreement on the objectives or your 
analysis of the terrible situation. I want the gentleman to be 
assured of that. Thank you.
    Mr. Rohrabacher. Thank you very much, Mr. Bereuter. I would 
like to bring up two points about the government of Burma, or 
should I say the thugs that control Burma, because they are not 
the government. Let us be aware. These people hold power, but 
they are not the government. The government, again, derives its 
just powers from the consent of the governed, and these people 
could not muster a majority by any stretch of the imagination.
    But this regime that is in power has made deals with the 
Chinese. And we talked about Chinese engagement, constructive 
engagement with the Burmese dictatorship. I think it is 
important for us to put on the record that the Chinese have 
provided the weapons that this regime has needed to maintain 
control. How this regime is maintaining control, it is now in 
an unholy alliance with Beijing. And what does Beijing get for 
giving them all of these hundreds of millions of dollars of 
weapons? Number one, it is receiving some place for a military 
location on the coast of Burma, which is now, we understand, 
not necessarily in construction, but clearly there is a Chinese 
military presence there. But more importantly, what they are 
doing is they are cutting down all of the teak wood. They are 
taking what belongs to the people of Burma, their natural 
treasures, whether they are minerals or whether they are 
timber--and that is the next thing that I am going to mention--
and they are just taking this away, robbing the people of their 
legacy, and the money is going, yes, to pay the Chinese for 
their guns, and it is going into foreign bank accounts. That is 
number one we have to understand about the regime in Burma.
    But number two, let us understand that over the last 10 
years the Burmese regime has completely obliterated its own 
opposition, not only from Aung San Suu Kyi's supporters and the 
democratic supporters, but also from various ethnic groups that 
maintain certain control of territory around Burma for a number 
of years. Now this regime has total control of Burma. And what 
is happening to the heroin production in Burma now that this 
regime totally controls the country? Opium production in Burma 
is dramatically up, even though they have had some kind of a 
drought over there, and what we have got is this Administration 
does not--excuse me--there are people in this Administration 
who do not want to face the fact that the drug lords and the 
regime are one and the same. So let us recognize that the 
Burmese regime controls that country and that country produces 
30 to 40 percent of the world's heroin, and that is what we are 
up against here.
    There is no more vile regime on this planet than the one in 
Burma, and the people in Thailand are looking to us to stand 
strong, and I think that this is a very important resolution, 
and it is important to have our voices strong and united in 
these things. And I appreciate Mr. Bereuter making it very, 
very clear that he is morally and all the other ways opposed to 
this type of regime. So thank you very much.
    Chairman Gilman. Thank you, Mr. Rohrabacher. Are any other 
members seeking recognition? If not, the gentleman from 
Nebraska, Mr. Bereuter is recognized to offer a motion.
    Mr. Bereuter. Mr. Chairman, I move the Chairman be 
requested to seek consideration of pending measure as amended 
on the suspension calendar.
    Chairman Gilman. The question is on the motion of the 
gentleman from Nebraska. Any as in favor of the motion, signify 
in the usual manner.
    Any opposed, say no.
    The ayes have it. The motion is agreed to. Further 
proceedings on this measure are postponed.
    Mr. Menendez. Mr. Chairman.
    Chairman Gilman. Who is seeking recognition?
    Mr. Menendez. I do.
    Chairman Gilman. Mr. Menendez.
    Mr. Menendez. Mr. Chairman, parliamentary inquiry. Did the 
previous legislation of the Committee, I understand, adopted on 
the Export Administration Act, get sent to the Subcommittee on 
International and Economic Policy and Trade?
    Chairman Gilman. Yes. I am informed by staff that we 
informed the Subcommittee on International Economic Policy and 
Trade that we intended to proceed to the Full Committee on this 
important measure so that we could get it to the Senate as 
quickly as possible.
    Mr. Menendez. Mr. Chairman, let me first say that you may 
have informed the Chairlady, but you did not inform the whole 
Committee, and as the ranking Democrat on the Committee, let me 
say that while I support, in essence, what the bill attempts to 
do, I would have done it a little differently. I do want to 
register my strong opposition to it having been marked up here 
in Full Committee--and I would have been here at the original 
time at 2:00, the Committee was originally cited for--without 
first having gone to our Subcommittee. It is just an issue that 
for members of the Committee, who spend a lot of time as I do 
in my Subcommittee, showing up, working on issues. The value of 
a member on behalf of the constituency they represent is not 
for that Subcommittee and the work there to be an intellectual 
reservoir or debating society, but it comes on the opportunity 
to craft and vote on legislation. So I would hope that for the 
future, that we would have the courtesy as knowing as well, and 
being able to register our opinions as to whether or not the 
Committee should be bypassed, and I would hope it is done in 
the most infrequent opportunities as possible.
    Chairman Gilman. I thank the gentleman for his comments, 
and I regret that he was not informed of this. And I would 
think that it be the Subcommittee Chairman's responsibility to 
inform the Committee of these kind of events, but we certainly 
will take the gentleman's comments in mind for future issues 
that come before our Committee.
    Mr. Bereuter. Mr. Chairman.
    Chairman Gilman. Mr. Bereuter.
    Mr. Bereuter. Thank you, Mr. Chairman. I had thought that 
perhaps H. Con. Res. 397 might come up today. It is on Central 
Asia. It is authored by the gentleman from New Jersey, Mr. 
Smith. We are ready to take that up, and if we have another 
markup, I am hoping that it could be brought on that agenda. I 
think Mr. Smith is ready to move, and I certainly am.
    Chairman Gilman. Mr. Bereuter, staff informs me that we 
will be prepared to take that measure up next week in our next 
markup.
    Thank you very much, and I want to thank all of our members 
for standing by. The Committee stands adjourned.
    [Whereupon, at 2:41 p.m., the Committee was adjourned.]
                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

  Prepared Statements of Hon. Benjamin A. Gilman, a Representative in 
      Congress from the State of New York, Chairman, Committee on 
                        International Relations
         h.r. 4899, the pacific charter commission act of 2000
    Shortly after World War II, the great American soldier and 
statesman, George C. Marshall, said that a safe and free America 
depends on a safe and free Europe. Marshall, of course, was emphasizing 
the importance of Europe to the United States at the time. Permit me to 
suggest that Marshall's paradigm has changed. Today, he could have 
stated that a safe and free America depends on a democratic, safe and 
free Asia.
    Before the Summer recess, I introduced H.R. 4899, legislation to 
establish a Pacific Charter Commission. The purpose of the commission 
would be to create a charter that would promote a consistent and 
coordinated foreign policy which would ensure economic and military 
security in the Pacific region of Asia. The charter would attempt to 
obtain these goals through the promotion of democracy, human rights, 
the rule of law, free trade, and open markets.
    As you know, this region is vital to the future of our nation. Over 
the past 50 years, Asia has become a significant center of 
international economic and military power. The United States has seen 
the blood of its sons and daughters shed on Asian soil in defense of 
our national interests and in fighting tyranny. America has fought 
three wars in Asia since 1941, and American soldiers, sailors, airmen, 
and Marines are engaged in ensuring peace across the Pacific. Our basic 
interests in Asia have remained virtually the same for the past 200 
years: fostering democracy, human rights and the rule of law.
    In 1941, the United States and Great Britain laid down a set of 
principles of foreign-policy conduct. It was called the Atlantic 
Charter. Similarly, I propose that we establish a Pacific Charter 
Commission that would assist our government in laying out the 
principles for our policies in Asia in the 21st century. Such a Pacific 
Charter would articulate America's long-term goals and objectives in 
the Pacific and link them with the means for implementation. It would 
be a comprehensive model for our involvement in the region, supporting 
our national interests and assuring others of our intention to remain a 
Pacific power. Further, it would demonstrate that the United States is 
placing its relations with Asia in the 21st century on a par comparable 
to that which has informed its relations with Europe over the latter 
half of the 20th century.
    H.R. 4899 would establish a commission of seven members from 
outside the government, with an interest and expertise relating to 
Asia, chosen by the President with the advice and consent of the 
Senate. Commissioners, who would serve for six years, would develop a 
new U.S. foreign policy for the Pacific region.
    The time has come to lay out an architecture of policy that will 
establish our intention to remain engaged in Asia and the terms of our 
continued engagement. A Commission to establish a Pacific Charter for 
the 21st century would provide the framework for such a U.S. policy. It 
would assure the entire region--allies and otherwise--of the 
continuation of a leadership that is consistent, coherent, and 
coordinated.
    Accordingly, I ask for you to vote for H.R. 4899.
    h.r. 5224, the international food relief partnership act of 2000
    I am pleased to join the Chairman of the Committee on Agriculture, 
Mr. Combest, the distinguished gentleman from Texas, and the Ranking 
Member of the Committee on Agriculture, the distinguished gentleman 
from Texas, Mr. Stenholm, and the distinguished Chairman of the 
Subcommittee on Asia and the Pacific of the International Relations 
Committee, the distinguished gentleman from Nebraska, Mr. Bereuter, in 
introducing the International Food Relief Partnership Act of 2000.
    The International Food Relief Partnership Act of 2000 authorizes 
the stockpiling and rapid transportation, delivery and distribution of 
shelf stable prepackaged foods to needy individuals in foreign 
countries.
    This bill creates a public-private partnership to leverage the 
donation of nutritious food by volunteers to needy families around the 
globe at times of famine, disaster and other critical needs.
    Non-profits such as Breedlove, Child Life International, and Feed 
the Starving Children provide direct hunger assistance at times of 
disaster, famine, or other critical need. Other non-profits similar to 
these fine organizations are located throughout the United States. 
These non-profits accept gleaned crops donated by regional farmers, and 
help transport and distribute this food overseas. Once the donated food 
is processed, it can be stored for years for use in food emergencies.
    We need to encourage more volunteer efforts from non-profits. The 
International Food Relief Partnership Act accomplishes this objective 
by providing a means for non-profits to accept donated and food and 
process it into a product for use in times of disaster, famine, or 
other critical need.
    I ask my colleagues to support this important legislation.
h.r. 5239, the export administration modification and clarification act 
                                of 2000
    The ``Export Administration Modification and Clarification Act of 
2000'' will strengthen the enforcement of our export control system by 
increasing the penalties against those who would knowingly violate its 
regulations and provisions.
    This measure would implement one of the key recommendations of the 
Cox Commission report on protecting our national security interests, 
and is virtually identical to a provision in H.R. 973, a security 
assistance bill, which passed the House in June of last year with 
strong bipartisan support.
    Since the Export Administration Act (EAA) lapsed in August of 1994, 
the Administration has used the authorities in the International 
Emergency Economic Powers Act (IEEPA) to administer our export control 
system. But in some key areas, the Administration has less authority 
under IEEPA than under the EAA of 1979.
    For, example, the penalties for violations of the Export 
Administration Regulations that occur under IEEPA, both criminal and 
civil, are substantially lower than those available for violations that 
occur under the EAA. Even these penalties are too low, having been 
eroded by inflation over the past 20 years.
    The measure I am introducing today significantly increases the 
penalties available to our enforcement authorities at the Bureau of 
Export Administration (BXA) in the Department of Commerce. It also 
ensures that the Department can maintain its ability to protect from 
public disclosure information concerning export license applications, 
the licenses themselves and related export enforcement information.
    In view of the lapse of the EAA over the past five and one-half 
years, the Department is coming under mounting legal challenges and is 
currently defending against two separate lawsuits seeking public 
release of export licensing information subject to the confidentiality 
provisions of section 12(c) of the EAA.
    The measure also authorizes $72 million for fiscal year 2001 for 
the operation of the Export Administration Act as continued under the 
International Emergency Economic Powers Act.
    I would urge my colleagues to join me in supporting this very 
timely measure that will provide the authorities our regulators need to 
deter companies and individuals from exporting dual-use goods and 
technologies to countries and uses of concern and to protect the 
confidentiality of the export control process.
               h.r. 2166, the bear protection act of 1999
    I want to commend Representative Porter, the gentleman from 
Illinois, for crafting this important bill. And I want to thank 
Chairwoman Ros-Lehtinen and the Ranking Minority Member of the 
International Economic Policy and Trade Subcommittee for their quick 
action on this bill.
    Although the demand for bear parts is virtually non-existent in the 
U.S., the market is rapidly expanding in Eastern Asia. Bear viscera are 
widely used as aphrodisiacs, as traditional medicines to treat 
everything from epilepsy to toothaches, and some parts are considered 
culinary delicacies. As East Asia has already forced its bear 
population to the brink of extinction, they are turning to the United 
States as a new source for bear viscera. In South Korea, North American 
bear gall bladders are sold under-the-counter in small quantities and 
are worth more, gram for gram, than cocaine.
    H.R. 2166 bans the sale, export, import and possession of bear 
viscera and would set civil and criminal penalties for violations. The 
Bear Protection Act also directs the United States Trade Representative 
to make international trafficking in bear viscera a priority issue in 
ongoing discussions with our Asian trading partners.
    Accordingly, I urge my colleagues to support H.R. 2166.
     h. con. res. 328, relating to free and fair elections in burma
    I want to commend Congressman Porter, the gentleman from Illinois, 
for introducing this important piece of legislation. Today Aung San Suu 
Kyi is attempting to travel to northern Burma in defiance of the 
dictatorships ban on her traveling. She was twice forcefully returned 
after attempting to travel in Burma. The last attempt was August 24th. 
She camped out in her car for nine days until the dictatorship forced 
her back. She was then held incommunicado.
    As we speak, she is surrounded by heavily armed soldiers at the 
train station and is being prevented from boarding the train.
    The U.N. General Assembly and the Human Rights Commission have 
passed nine consecutive resolutions regarding the appalling human 
rights conditions in Burma. This resolution as amended ensures that the 
Congress remains on record in support of this brave woman in Burma.
    I urge my colleagues to support the bill.
On Burma Amendment
    I strongly support the amendment offered by the gentleman from New 
Jersey. The Congress needs to remain firmly on the record in support of 
the continuing sanctions against the repressive illegal government in 
Burma.
    Aung San Suu Kyi and members of Parliament who were elected in 1990 
have not been able to establish a government inside of Burma. Many of 
her supporters have been and still are imprisoned. Thousands have been 
tortured and/or murdered. The government relies heavily on slave and 
forced labor for construction projects. The ILO has even banned it from 
participating in any ILO meetings.
    The government is also deeply involved in the illicit drug trade. 
It was just reported that Secretary Cohen was in Thailand two days ago 
and the Thai are asking for 50 helicopters to fight against the drug 
trafficking.
    The Thai military has estimated that 600 million amphetamine pills 
flooded Thailand last year from across the 2,000 kilometer (1,240 mile) 
border with Myanmar. Thai community leaders have frequently accused 
Myanmar of destroying Thai youth, warning that drug addiction was 
reaching crisis proportions in Thailand, with more than 600,000 young 
people reportedly hooked on amphetamines.
    In Bangkok Tuesday, Secretary Cohen said, ``We understand now that 
there is a serious problem concerning Thailand by virtue of 
methamphetamine being produced and distributed from Burma. The drug 
problem will be high on the agenda of the commander of the U.S. forces 
in the Pacific, who is due to visit Thailand next week.''
    Now is certainly not the time to suggest that the Congress is 
backing down from its strong support for the sanctions. I urge my 
colleagues to support this amendment.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                   - 

</pre></body></html>
